  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


            FPS Related Funds
             Transferred From
               GSA to DHS




             Office of Audits
OIG-06-29                       March 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibilities to promote economy, effectiveness and efficiency within the
department.

This report assesses the use of certain funds transferred by the General Services Administration to
the Department of Homeland Security for the support of the Federal Protective Service. It is based
on interviews with employees and officials of relevant agencies and institutions and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Contents


  Executive Summary ....................................................................................................................... 1

  Background .................................................................................................................................... 2

  Results of Review .......................................................................................................................... 2

  FY 2003: GSA and FPS Controlled the Transferred Fees............................................................. 2

  FY 2004: FPS Lost Its Outside Funding for Support Costs .......................................................... 3

  FY 2005: GSA No Longer Transferred Funds to FPS................................................................... 6

  Recommendations.......................................................................................................................... 6

  Management Comments and OIG Analysis .................................................................................. 6




Appendices
  Appendix A:            Purpose, Scope, and Methodology ....................................................................... 8
  Appendix B:            Congressional Request Letter............................................................................... 9
  Appendix C:            Management Comments to The Draft Report .................................................... 11
  Appendix D:            Major Contributors to This Report..................................................................... 13
  Appendix E:            Report Distribution............................................................................................. 14


Abbreviations
  OIG             Office of Inspector General
  GSA             General Services Administration
  DHS             Department of Homeland Security
  FPS             Federal Protective Service
  HSA             Homeland Security Act of 2002
  ICE             Immigration and Customs Enforcement
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                At the request of Representatives James L. Oberstar and Eleanor Holmes
                Norton,1 we reviewed certain funds transferred from the General Services
                Administration (GSA) to the Department of Homeland Security (DHS). Our
                objective was to determine whether DHS was in compliance with the
                Homeland Security Act of 2002 (HSA)2. The HSA required that any GSA
                rents and fees transferred to DHS be used solely for the protection of
                buildings and grounds owned or occupied by the Federal government. The
                protection of Federal property is the primary mission of the Federal Protective
                Service (FPS), which was transferred to DHS from GSA on March 1, 2003.

                We concluded that DHS did not violate the terms of the HSA in FY 2003 or
                FY 2005; however, the potential for a violation exists in FY 2004. In FY
                2004, FPS paid ICE for support services out of fees it received from GSA for
                security services. FPS has disputed ICE’s FY 2004 charges. If the ICE
                charges are ultimately found to be excessive, those charges could be construed
                as a violation of the HSA3 and the rules prohibiting augmentation of
                appropriations.4 An additional problem beginning in FY 2004 was that
                neither DHS’ annual budget request nor DHS’ appropriation set aside funding
                for FPS’ support services, contrary to FPS’ expectation and prior experience.
                Prior to its transfer to DHS, GSA budgeted and paid for FPS supports costs.

                We are recommending that DHS, ICE, and FPS identify a source of funding
                for FPS’ administrative costs, including additional budget authority if
                appropriate, in DHS’ annual budget request. We also are recommending that
                DHS and ICE research, support, and adjust, if necessary, the costs charged to
                FPS by ICE in FY 2004 and review transactions related to FPS support costs
                for compliance with appropriations law.



                1
                  See the letter from Representatives James L. Oberstar and Eleanor Holmes Norton, included
                as Appendix B.
                2
                  See Appendix A for Purpose, Scope, and Methodology.
                3
                  Homeland Security Act of 2002, § 422(b)(2) codified at 6 U.S.C. § 232(b)(2).
                4
                  For an explanation of the rules prohibiting augmentation of appropriations, please see the
                Government Accountability Office’ Principles of Federal Appropriations Law, Chapter 6,
                Section E, “Augmentation of Appropriations” (GAO/OGC-92-13).


                                  FPS Related Funds Transferred from GSA to DHS

                                                      Page 1
Background
               Pursuant to the Homeland Security Act of 2002 (HSA), the Federal Protective
               Service (FPS) transferred to the Department of Homeland Security (DHS)
               from the General Services Administration (GSA) on March 1, 2003. Within
               DHS, FPS is organizationally a part of Immigration and Customs
               Enforcement (ICE). FPS’ mission is to provide law enforcement and security
               to buildings and property owned or occupied by the Federal government. The
               HSA required that any GSA rents and fees transferred to DHS be used solely
               for the protection of buildings and grounds owned or occupied by the Federal
               government.

               FPS is funded entirely from fees collected for its services, some of which are
               mandatory and others of which are optional. FPS provides optional security
               services at the request of agencies through direct reimbursable agreements.
               When FPS was part of GSA, GSA collected FPS’ fees for mandatory security
               services through its rental invoices to tenant agencies. Payments were
               deposited into GSA’s Federal Buildings Fund, from which GSA paid FPS its
               fees. After FPS moved to DHS, GSA continued collecting those security fees
               in FY 2003 and FY 2004 and transferred them to FPS. In FY 2005, GSA
               provided billing services for FPS, but payments from tenant agencies for FPS
               services went directly to FPS.

Results of Review
               We concluded that DHS did not violate the terms of the HSA in FY 2003 or
               FY 2005; however, the potential for a violation exists in FY 2004. In FY
               2004, FPS paid ICE for support services out of fees it received from GSA for
               security services. FPS has disputed ICE’s FY 2004 charges. If the ICE
               charges are ultimately found to be excessive, those charges could be construed
               as a violation of the HSA and the rules prohibiting augmentation of
               appropriations. An additional problem beginning in FY 2004 was that neither
               DHS’ annual budget request nor DHS’ appropriation set aside funding for
               FPS’ support services, contrary to FPS’ expectation and prior experience.
               Prior to its transfer to DHS, GSA budgeted and paid for FPS supports costs.

               FY 2003: GSA and FPS Controlled The Transferred Fees
               In FY 2003, DHS was compliant with the HSA provision regarding
               transferred GSA rents and fees because FPS and GSA controlled the relevant



                             FPS Related Funds Transferred from GSA to DHS

                                                Page 2
funds, according to DHS, FPS, and GSA. When FPS transferred to DHS,
GSA reported that it transferred $255 million in unobligated funds from its
Federal Buildings Fund to FPS for FPS’ operations. However, the handling of
administrative support costs was more complicated.

Before FPS transferred to DHS, GSA budgeted for FPS’ administrative
support costs and paid for them. Thus, when FPS transferred to DHS in
March 2003, GSA transferred to DHS the portion of its budget authority set
aside for FPS support services. GSA estimated annual FPS support costs at
$18 million for telecommunications and $10 million for other administrative
services, or $28 million in total. By agreement, GSA continued to provide all
of FPS’ administrative support through the end of FY 2003. DHS, FPS, and
GSA officials said that GSA did not transfer to DHS the funds related to the
transferred budget authority. Instead, GSA kept the funds to cover the
administrative support it still was providing FPS and would have otherwise
had to collect back.

For FY 2003, DHS, GSA, and FPS officials were all in agreement with
respect to the handling of funds between the entities. Based on the above,
DHS was compliant with the relevant HSA provision. DHS did not control
such funds in FY 2003, and FPS received the funds from or the support
services paid for by GSA’s rents and fees.

FY 2004: FPS Lost Its Outside Funding for Support Costs
In FY 2004, DHS was compliant with the relevant HSA provision with the
possible exception of administrative support fees charged by ICE to FPS.
Both ICE and GSA provided support services to FPS in FY 2004, and FPS
had to pay for those services, contrary to FPS’ expectation and prior
experience.




              FPS Related Funds Transferred from GSA to DHS

                                 Page 3
Budget Adjustments Versus Transfers of Budget Authority

For FY 2004, GSA transferred $424 million from its Federal Building Fund to
FPS, but both GSA and FPS said that this amount did not include FPS’
support costs. Unlike FY 2003, GSA did not transfer budget authority to DHS
to cover FPS’ administrative costs as it had in FY 2003. GSA’s and FPS’
position was that the budget authority transferred in FY 2003 had become part
of DHS’ budget base going forward, with a corresponding decrease in GSA’s
budget base. They held that the $28 million for support costs was built into
DHS’ FY 2004 budget and intended for FPS’ support.

The DHS’ FY 2004 budget proposal and the corresponding appropriation
legislation, however, did not include discussions on FPS support costs. DHS
did not identify a portion of its budget for FPS support, and DHS’ FY 2004
appropriation and the related conference report contained no earmark or direct
funds for FPS support costs. FPS was then faced with costs for which it had
not budgeted.

Paying for FPS’ Administrative Support Costs

In FY 2004, GSA continued to provide most of FPS’ administrative support.
The Memorandum of Agreement between DHS and GSA specifically called
for GSA to provide procurement, financial management, human capital,
information technology, legal, and other administrative support to FPS. GSA
estimated these service costs at $26.3 million and requested payment, because
its budget had been cut while DHS’ budget had been increased by the $28
million. After discussions between DHS and FPS, DHS paid $18.6 million
and FPS paid $7.7 million to settle the bill.

In the meantime, ICE began charging FPS for technology transition services
in anticipation of providing support services in FY 2005. ICE billed FPS
$16.1 million for these services. FPS paid $8.1 million and requested support
for ICE’s charges. FPS officials said they only received a listing of personnel
salary tables and no other information.

After FPS paid the $8.1 million, ICE charged FPS the remaining $8 million
and withdrew it from FPS’ account. Table 1 provides a summary of the
administrative support costs billed for FPS in FY 2004 and who paid.




              FPS Related Funds Transferred from GSA to DHS

                                 Page 4
                                                                  Table 1
                                                        FPS Support Costs for FY 2004

                                   Service Provider      Billed       FPS Paid     DHS Paid       Total Paid
                                         GSA             $26.3          $7.7        $18.6           $26.3
                                         ICE             $16.1         $16.1        _$0_            $16.1
                                        Total            $42.4         $23.8        $18.6           $42.4

                           FPS was understandably concerned about the costs for administrative support
                           that it had to begin paying directly. First, FPS said that it paid almost $24
                           million for support costs that it had never paid before and had not anticipated.
                           Second, without DHS’ help, it would have otherwise had to pay $42 million
                           for support services that historically had been estimated at only $28 million.
                           FPS considered the $42 million excessive for the services it had received.

                           If ICE overcharged FPS for support services and FPS did not receive
                           commensurate benefits for those charges, DHS could possibly be in violation
                           of the HSA provision that any GSA rents and fees transferred to DHS be used
                           solely for the protection of buildings and grounds owned or occupied by the
                           Federal government. FPS’ FY 2004 funds came from rents and fees that GSA
                           collected and transferred to FPS for its mission, and excessive payments to
                           ICE likely would be a transfer for other purposes. Excessive payments to ICE
                           could also be construed as an improper augmentation of ICE’s appropriation.
                           For these reasons, DHS needs to ensure that ICE can thoroughly justify its
                           charges to FPS in FY 2004 to demonstrate DHS’ compliance with the HSA.

                           On the other hand, Congress appropriated $424 million to FPS for its
                           necessary expenses, with those funds to be transferred from GSA’s Federal
                           Building Fund.5 DHS’ $18.6 million payment to GSA for FPS expenses
                           could be construed potentially as an augmentation of FPS’ appropriation.

                           DHS and ICE need to research the precise services that ICE provided to FPS
                           and determine whether ICE has adequate support for the amounts charged. If
                           adequate support is not available, DHS and ICE may need to compare the type
                           and costs of services ICE provided to similar services provided by GSA and
                           other federal agencies to assess reasonableness. If necessary, ICE will need to
                           adjust the amount charged to FPS in FY 2004.



5
    Department of Homeland Security Appropriations Act, 2004, Pub. L. 108-90, 117 Stat. 1137, 1140 (2003)




                                            FPS Related Funds Transferred from GSA to DHS

                                                                  Page 5
FY 2005: GSA No Longer Transferred Funds to FPS
In FY 2005, GSA no longer collected fees for FPS but billed its tenants on
FPS’ behalf, who paid FPS directly. Therefore, the relevant section of the
HSA no longer applied because FPS collects its own fees with no transfer
from GSA.

GSA continued to provide and charge for support to FPS for financial
management and information technology in FY 2005. ICE and FPS officials
reported that ICE agreed to absorb the costs of FPS support services for FY
2005. However, DHS, ICE, and FPS officials should review these
transactions for compliance with appropriations law.

Recommendations
We recommend that the DHS Chief Financial Officer, in consultation with the
ICE Chief Financial Officer and FPS officials:

   1. Ascertain the impact of administrative costs on FPS’ operating budget
      and identify a source of funding for FPS’ administrative costs,
      including additional budget authority if necessary, in the annual DHS
      budget request.

   2. Obtain a thorough justification of FY 2004 ICE charges to FPS and
      require ICE to return any overcharge, if identified, to FPS to ensure
      compliance with the HSA.

   3. Obtain a legal opinion on the legitimacy of the transactions discussed
      in this report, i.e., were the transactions in compliance with
      appropriations law, and take appropriate corrective actions, as
      necessary.

Management Comments and OIG Analysis

ICE commented on our report through the Department and concurred with the
recommendations. ICE said that efforts are underway to evaluate the impact
of administrative costs on FPS to identify whether additional budget authority
or other funding is needed. ICE said that it is committed to reviewing FY
2004 administrative support charges to FPS and will remedy the matter if
needed. ICE said that it would review the legitimacy of transactions to ensure



              FPS Related Funds Transferred from GSA to DHS

                                 Page 6
compliance with appropriation law and take any needed corrective actions.
Appendix C includes ICE’s comments in their entirety.

The DHS Chief Financial Officer did not provide separate comments,
although we recommended that he take action in consultation with ICE and
FPS. The DHS Chief Financial Officer retains overall responsibility for
ensuring that these recommendations are addressed in a fair manner in
compliance with appropriations law. To that effect, ICE’s lead role in
addressing these recommendations that pertain to itself and its FPS component
is acceptable. We will consider these recommendations resolved when we
receive a timetable for specific corrective actions.




              FPS Related Funds Transferred from GSA to DHS

                                 Page 7
Appendix A
Purpose, Scope, and Methodology




In response to a letter dated February 11, 2005, from Representatives James
Oberstar and Eleanor Holmes Norton, we reviewed funds transferred from
GSA to DHS to determine whether DHS was in compliance with the HSA.
They noted that according to the HSA, funds transferred from rents and fees
collected by GSA were to be used solely for the protection of buildings or
grounds owned or occupied by the Federal government. They requested that
the OIG review all transfers from GSA to DHS for compliance.

To address the concerns of Representatives Oberstar and Holmes Norton, we
performed the following procedures:

   •   Interviewed officials from DHS, FPS, GSA, and ICE with respect to
       the transfers identified by Representatives Oberstar and Holmes
       Norton;
   •   Reviewed documentation provided to us by DHS, FPS, GSA, and ICE;
   •   Focused on those transactions identified in the letter from
       Representatives Oberstar and Holmes Norton.

Our review was limited to inquiries and analytical procedures and did not
include search, verification, and internal control procedures, or a complete
review of compliance with appropriation law, as would be required for an
audit conducted according to generally accepted government auditing
standards. Our review was sufficient to identify issues and make
recommendations as to next steps.

We conducted our review between March 2005 and November 2005 under the
authority of the Inspector General Act of 1978, as amended.




             FPS Related Funds Transferred from GSA to DHS

                                Page 8
Appendix B
Congressional Request Letter




          FPS Related Funds Transferred from GSA to DHS

                             Page 9
Appendix B
Congressional Request Letter




          FPS Related Funds Transferred from GSA to DHS

                            Page 10
Appendix C
Management Comments to the Draft Report




         FPS Related Funds Transferred from GSA to DHS

                           Page 11
Appendix C
Management Comments to the Draft Report




         FPS Related Funds Transferred from GSA to DHS

                           Page 12
Appendix D
Major Contributors to this Report




Sue Schwendiman, Director, Financial Management
Sunday Okurume, Audit Manager, Financial Management
Pauletta Battle, Auditor, Financial Management




           FPS Related Funds Transferred from GSA to DHS

                             Page 13
Appendix E
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretariat
Chief of Staff
Deputy Chief of Staff
General Counsel
Under Secretary for Management
Assistant Secretary, Public Affairs
Assistant Secretary, Policy
Assistant Secretary, Legislative and Intergovernmental Affairs
Acting Chief Financial Officer
Chief Security Officer
OIG Liaison

Federal Protective Service

Director
Director of Financial Management
OIG Liaison

Immigration and Customs Enforcement

Assistant Secretary
Chief Financial Officer
OIG Liaison

General Services Administration

Inspector General
Chief Financial Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




               FPS Related Funds Transferred from GSA to DHS

                                   Page 14
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.




                        FPS Related Funds Transferred from GSA to DHS
